               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




            Vehicle Parts Inventory
          Management — Pacific Area

                       Audit Report




                                              April 12, 2013

Report Number DR-AR-13-003
                                                                          April 12, 2013

                                                             Vehicle Parts Inventory
                                                         Management — Pacific Area

                                                        Report Number DR-AR-13-003



BACKGROUND:
The U.S. Postal Service has 321 vehicle      parts at appropriate levels. We found
maintenance facilities, or repair            that inventory balances for 79 percent of
garages, nationwide to maintain its          the parts were sufficient and within
vehicle fleet, 37 of which are in the        established levels, with 21 percent
Pacific Area. Officials acquire vehicle      below recommended levels. Parts were
parts from two primary national              not at required levels because they were
suppliers. These suppliers provide parts     either due in or on back order. Not
to maintain and repair vehicles, ranging     maintaining established inventory levels
from motors, transmissions, tires, and       could potentially impact vehicle repairs
batteries to nuts, bolts, and screws.        being timely and economical.
Facilities can also purchase repair parts
locally. In fiscal year 2012, Pacific Area   Furthermore, managers at some vehicle
personnel purchased nearly $29 million       maintenance facilities did not always
in vehicle parts.                            safeguard parts and perform mandatory
                                             physical inventories because they were
To maintain vehicle parts, the Postal        not always aware of security risks and
Service has established stockrooms at        policies regarding safeguarding assets
every vehicle maintenance facility.          and physical inventory. As a result of
Postal Service policies require vehicle      inadequate controls, vehicle parts
maintenance facility personnel to            valued at $23,125,255 were at risk.
perform regular inventories of its vehicle
parts to ensure the inventories are          WHAT THE OIG RECOMMENDED:
sufficient and accurate. Additionally,       We recommended the vice president,
personnel must safeguard all assets.         Pacific Area Operations, require district
                                             managers to ensure that vehicle
Our objectives were to determine             maintenance facility managers maintain
whether vehicle maintenance facility         established parts inventory levels,
personnel were purchasing and                re-emphasize the safeguarding of
maintaining vehicle parts at appropriate     vehicle parts and the proper
levels and management controls were          management of inventories including
adequate to safeguard inventory.             conducting mandatory inventories, and
                                             implement training for stockroom
WHAT THE OIG FOUND:                          personnel.
Managers at selected Pacific Area
vehicle maintenance facilities generally     Link to review the entire report
purchased and maintained inventory for
April 12, 2013

MEMORANDUM FOR:             DEAN J. GRANHOLM
                            VICE PRESIDENT, PACIFIC AREA OPERATIONS

                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Vehicle Parts Inventory
                            Management – Pacific Area
                            (Report Number DR-AR-13-003)

This report presents the results of our audit of Vehicle Parts Inventory Management –
Pacific Area (Project Number 13XG003DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachments

cc: Edward F. Phelan, Jr.
    Deborah M. Giannoni-Jackson
    Elizabeth A. Schaefer
    Phillip F. Knoll
    Belinda L. Olson
    Corporate Audit and Response Management
Vehicle Parts Inventory Management –                                                                               DR-AR-13-003
 Pacific Area



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Vehicle Parts Purchases ................................................................................................. 2

Vehicle Parts Inventory Levels ........................................................................................ 2

   Vehicle Parts Inventory Safeguards............................................................................. 4

   Physical Security and Access Control ......................................................................... 4

   Inventory and Purchasing Procedures ......................................................................... 6

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objectives, Scope, and Methodology ........................................................................ 10

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Other Impacts ........................................................................................... 12

Appendix C: Management's Comments ........................................................................ 13
Vehicle Parts Inventory Management –                                                             DR-AR-13-003
 Pacific Area



Introduction

This report presents the results of our audit of Vehicle Parts Inventory Management —
Pacific Area (Project Number 13XG003DR000). The objectives of this self-initiated audit
were to determine whether vehicle parts were purchased and maintained at the
appropriate levels and whether management controls were adequate to safeguard
inventory. This audit addresses operational risk and is the second in a series conducted
by the U.S. Postal Service Office of Inspector General (OIG). We also plan to conduct a
nationwide audit and issue a capping report. See Appendix A for additional information
about this audit.

The U.S. Postal Service has 321 vehicle maintenance facilities (VMFs) nationwide to
maintain a fleet of more than 212,000 1 vehicles. Thirty-seven of these VMFs are in the
Pacific Area, which maintains more than 28,000 vehicles. VMF officials acquire parts via
the parts consignment program 2 from two primary national ordering agreement (NOA)
suppliers: Wheeler Brothers, Incorporated and Jasper Innovative Solutions,
Incorporated. Suppliers establish order point 3 inventory levels for NOA parts, usually
based on 12 months of average usage. VMF personnel and NOA suppliers manage
order points conjointly. Repair parts can also be purchased locally. To maintain vehicle
parts, there must be stockrooms at every VMF. Postal Service policies require
personnel to perform regular inventories of vehicle parts to ensure that purchases are
entered correctly, quantities on-hand are recorded correctly, and discrepancies are
investigated and corrected. Additionally, personnel must safeguard all assets. 4

Conclusion

Managers at selected Pacific Area VMFs generally purchased and maintained inventory
for NOA and nonNOA parts at the appropriate levels. We found that inventory balances
for 79 percent of the parts were sufficient and within established levels, with 21 percent
below recommended levels. Parts were not at required levels because they were either
due in or on back order. Not maintaining established inventory levels could potentially
impact vehicle repairs being timely and economical. This occurred because managers
were not always aware of security risks and policies regarding safeguarding of assets
and physical inventory. Furthermore, managers at some VMFs did not always
safeguard parts. As a result of inadequate controls, vehicle parts valued at $23,125,255
were at risk.




1
  United States Postal Service Fiscal Year 2012 Annual Report to Congress.
2
  Mandatory use of the Consignment of Vehicle Repair Parts Inventory Program for VMFs began in 1997.
3
  The order point level is the on-hand quantity that triggers replenishment of parts to avoid adversely impacting
maintenance and repair services. With implementation of the Solutions for Enterprise Asset Management (SEAM)
application, maximum levels are no longer established for NOA parts.
4
  Vehicle Maintenance Bulletin (VMB) 02-11, Review of Stockroom Policy and Procedures, April 15, 2011.
                                                             1
 Vehicle Parts Inventory Management –                                                                  DR-AR-13-003
  Pacific Area


 Vehicle Parts Purchases

 Managers at Pacific Area VMFs generally purchased NOA parts from NOA suppliers
 and non-NOA parts from local vendors as needed. NOA suppliers were the primary
 source for purchasing repair parts. In fiscal year (FY) 2012, Pacific Area officials
 purchased $28,846,615 in vehicle parts, $24,907,040 of which represented
 NOA purchases. NOA purchases represented 86 percent of the total cost for all parts
 purchased and non-NOA parts accounted for 14 percent. According to officials, they
 purchased non-NOA parts to prevent repair delays when NOA parts were out of stock or
 when the parts were not available for purchase from the NOA supplier (see Table 1).

                                     Table 1. FY 2012 Vehicle Parts Purchases 5

                                                                   Percentage                           Percentage
     Pacific Area          Total                 NOA                                 Non-NOA
                                                                     of NOA                             of Non-NOA
       District          Purchases             Purchases                             Purchases
                                                                   Purchases                             Purchases
 Bay-Valley                  $3,646,188            $3,200,246                88%         $445,943                   12%
 Honolulu                     1,005,835               846,370                84%          159,465                   16%
 Los Angeles                  2,267,084             2,134,738                94%          132,346                    6%
 Sacramento                   4,424,480             3,571,717                81%          852,763                   19%
 San Diego                    5,474,919             4,777,366                87%          697,553                   13%
 San Francisco                2,392,188             2,202,089                92%          190,099                    8%
 Santa Ana                    5,216,315             4,296,414                82%          919,901                   18%
 Sierra Coastal               4,419,607             3,878,101                88%          541,505                   12%
 Total                      $28,846,615           $24,907,040                86%       $3,939,574                   14%
Source: Enterprise Data Warehouse (EDW).

 Vehicle Parts Inventory Levels

 Vehicle parts inventory levels were generally sufficient and appropriate to perform
 vehicle maintenance and repairs. NOA suppliers establish an order point for each part
 supplied to each VMF. The order point is the minimum level reached that triggers
 replenishment of the part at the next scheduled shipment for each VMF and is the
 quantity maintained to avoid potentially impacting maintenance and repair services.

 The OIG's analysis of inventory reports for the 12 selected Pacific Area VMFs showed
 that:

      VMFs maintained inventory for 10,463 parts. 6

      Seventy-nine percent of parts (8,294 of 10,463) were maintained within the
       established order point.


 5
   Numbers may differ due to rounding.
 6
   The inventory reports listed 14,266 total parts available for purchase. However, the VMFs only maintained inventory
 for 10,463 parts. The remaining 3,803 parts were not stocked or did not have enough usage data to establish an
 order point.


                                                           2
Vehicle Parts Inventory Management –                                                                         DR-AR-13-003
 Pacific Area


      Twenty-one percent of parts (2,169 of 10,463) were below the established order
       point (see Table 2).

                                            Table 2. NOA Parts Inventory Levels 7

                                                                                                              Percentage
                                  Total        Parts on Hand        Percentage of           Parts on          of Parts on
                                 Number         at or Above         Parts on Hand          Hand Below            Hand
             VMFs                        8
                                of Parts         Minimum             at or Above            Minimum              Below
                                Reviewed            Level           Minimum Level             Level            Minimum
                                                                                                                 Level
     San Jose                           888                 717                   81%                171             19%
     Los Angeles                      1,118                 911                   81%                207             19%
     Fresno                             236                 177                   75%                 59             25%
     Stockton                           736                 522                   71%                214             29%
     San Bernardino                   1,740               1,539                   88%                201             12%
     San Diego                        1,168                 949                   81%                219             19%
     North Bay (in San
     Rafael)                            737                 617                   84%                120             16%
     La Puente                        1,183                 705                   60%                478             40%
     Torrance                           755                 639                   85%                116             15%
     Long Beach                         791                 692                   87%                 99             13%
     Anaheim -
     Auxiliary of
     Huntington Beach                   432                 286                   66%                146             34%
     Van Nuys -
     Auxiliary of Santa
     Clarita                           679                  540                   80%                139             20%
     Total                          10,463                8,294                   79%              2,169             21%
    Source: OIG analysis.

According to VMF officials, they established NOA supplier inventory levels based on
12 months of average parts usage. Officials stated that some parts were below the
order point level either because they were due in and not included in the on-hand
quantity or were on back order. Although vehicle repairs could potentially be impacted
as a result of not maintaining established inventory levels, VMF personnel at these
locations stated that they generally did not experience repair delays due to inadequate
part quantity levels. Parts below the order point are not necessarily out of stock but are
in the process of being replenished. However, if a part is out of stock, a VMF can
acquire it from local purchases or another nearby VMF.




7
    Inventory data for on-hand qualities are as of the date of the OIG visit. On-hand quantities fluctuate daily.
8
    We reviewed the inventory listing of part numbers to determine inventory levels.


                                                               3
Vehicle Parts Inventory Management –                                                                  DR-AR-13-003
 Pacific Area



Vehicle Parts Inventory Safeguards

Physical safeguards and inventory management controls were not adequate over
vehicle parts at some VMFs.

Physical Security and Access Control

Managers did not always secure vehicle part storage locations in accordance with
Postal Service policies pertaining to stockroom access and security 9 at the following six
VMFs:

   Anaheim – Auxiliary of Huntington Beach VMF: The stockroom was not physically
    limited to designated personnel responsible for issuing parts and tools because
    technicians are allowed access to the stockroom to obtain other supplies and tools
    as needed.

   Long Beach VMF: The stockroom back door, which was not visible to stockroom
    personnel, was left open during operating hours. In addition, a garage bay opening
    to the stockroom was open for several hours and we observed a mechanic entering
    the stockroom to look for a part he needed until the storekeeper intercepted him. We
    also observed that the door to the battery room was open throughout the length of
    our site visit 10 (see Figure 1).




9
  VMB 02-11 states, in part, that stockroom access should be physically limited to personnel designated to issue
parts and tools.
10
   VMB 02-11 requires doors not continuously visible by stockroom personnel to be closed and locked.


                                                          4
Vehicle Parts Inventory Management –                                        DR-AR-13-003
 Pacific Area


                             Figure 1: Long Beach VMF Battery Room




                       Source: OIG photograph taken January 9, 2013.

   San Bernardino VMF: Access to the stockroom was not restricted to authorized
    personnel with stockroom assigned duties. We observed technicians entering the
    stockroom without authorized personnel to obtain parts.

   San Diego VMF: Stockroom doors that were not continuously visible were not closed
    and locked. Specifically, the lock on the door was not functioning and the receiving
    area bay door was left open throughout the day even though no additional deliveries
    were expected (see Figure 2). Since our visit, the VMF manager stated that he took
    corrective action and repaired the stockroom door lock. According to the manager,
    the stockroom is now secured.




                                                   5
Vehicle Parts Inventory Management –                                                                  DR-AR-13-003
 Pacific Area


                              Figure 2: San Diego VMF Stockroom Bay Door




                                    Source: OIG photograph taken November 6, 2012.

    Stockton VMF: On the day of our visit, the stockroom receiving bay door was open
     throughout the day, although no deliveries were expected.

    Torrance VMF: While the doors to the main stockroom at the Torrance VMF that
     were not continuously visible to stockroom personnel were closed and locked
     throughout the day, we observed that a garage bay door in the tire storage area
     (separate from the main stockroom) was left open and unattended in the afternoon.
     In addition, a mezzanine area above the stockroom used to store tires and body
     parts for vehicles was also left unsecured the entire day.

Inventory and Purchasing Procedures

Our analysis of inventory records showed that management did not always ensure
mandatory inventories were conducted as required and in accordance with established
policies and procedures for mandatory or interim monthly inventories. 11 Specifically:

    Four of 12 VMFs reviewed did not consistently conduct monthly mandatory
     inventories.

    Five of the eight VMFs that conducted the monthly inventories did not consistently
     use two people to conduct the inventories. Of the three VMFs that did use
     two people, only one routinely used non-stockroom personnel to assist in the counts
     to ensure separation of duties.


11
  VMB 02-11 requires mandatory or interim inventories be performed each month, with specific part numbers
identified to be counted. The inventory team must consist of two people, including a person not assigned to the
stockroom.


                                                          6
Vehicle Parts Inventory Management –                                           DR-AR-13-003
 Pacific Area


The main factors that contributed to inadequate physical safeguards and inventory
management controls were:

   Managers not being aware of physical security or access control weaknesses.

   Managers not being aware of or not enforcing appropriate procedures required to
    maintain a separation of duties for monthly inventory accounting.

Not consistently conducting mandatory inventories and a lack of separation of duties
increases the likelihood of loss or theft of vehicle parts. As a result of inadequate
inventory controls, assets valued at $23,125,255 were potentially at risk. During our exit
conference, management stated that they are already taking actions to ensure inventory
management controls are adequate to safeguard assets.

Recommendations

We recommend the vice president, Pacific Area Operations, direct district managers to:

1. Ensure that vehicle maintenance facility managers maintain established order point
   inventory levels to prevent repair delays.

2. Re-emphasize stockroom management policies and procedures on physical security
   and inventory management including conducting mandatory inventories at vehicle
   maintenance facilities.

3. Implement training for stockroom personnel on security and inventory procedures
   and processes.

Management’s Comments

Management agreed with the findings and recommendations. Management
acknowledged the need to maintain order point inventory levels to prevent repair delays,
improve security, and training for stock room personnel. Management disagreed with
the dollar value of the assets at risk.

Management agreed with recommendation 1, as they conducted a review of the
expected ordering processes with VMF managers. Further, management stated as the
ordering process is integrated into SEAM, area and district staff will continue to monitor
the process quarterly. Management implemented action on March 19, 2013.

Management also agreed with recommendation 2, stating they created a monthly
checklist that includes mandatory monthly inventory updates. Management provided
training to all Pacific Area VMF managers regarding security, inventory processes, and
the monthly checklist requirements. The checklist will be on the Pacific Area website
and monitored monthly by area staff. Management implemented action on March 19,
2013.



                                             7
Vehicle Parts Inventory Management –                                         DR-AR-13-003
 Pacific Area


Management also agreed with recommendation 3, stating they provided training to all
VMF managers regarding security expectations in the VMF, asset inventory, and
ordering procedures. Management stated they distinctly covered the required
separation of duties. Management also stated all responsible VMF personnel must
complete the training and certify completion to the Pacific Area by March 26, 2013.
Management implemented action on March 19, 2013.

Management stated the current value of inventory parts for the Pacific Area was
$2,965,976.90. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. Regarding
recommendations 1, 2, and 3, OIG reviewed management’s documentation and
concurs that the actions taken sufficiently addressed the recommendations. The OIG
considers these recommendations closed with the issuance of this report.

Regarding the assets at risk, management stated their current VMF inventory stock was
valued at more than $2.9 million. OIG projected assets at risk of $23,125,255 based on
the dollar value of the FY 2012 part purchases of $12,606,209 for all VMFs in the
Pacific Area, excluding the Honolulu District. We believe the systemic weaknesses
identified put these assets at risk for the duration of time that the assets were managed
with inadequate safeguards.




                                            8
Vehicle Parts Inventory Management –                                                                DR-AR-13-003
 Pacific Area



                                  Appendix A: Additional Information

Background

The Postal Service operates one of the largest vehicle fleets in the U.S. During
FY 2012, the Postal Service owned more than 212,000 vehicles, using more than
190,000 to deliver and collect mail. The Postal Service has 321 VMFs nationwide to
maintain its vehicle fleet. Economical maintenance of the vehicle fleet requires parts
and materials needed for maintenance to be readily available. To maintain parts,
management must establish stockrooms at every VMF. In FY 2012, the Postal Service
spent more than $260 million in purchased and transferred vehicle parts. The Pacific
Area accounted for nearly $29 million (11 percent) of the costs.

Vehicle parts are managed by VMF personnel who are responsible for procuring,
storing, and issuing parts as needed for repairs and maintenance. Vehicle parts can be
purchased locally or through local or national purchasing agreements, including parts
received on consignment. The repair parts consignment program is a value-added
feature of NOAs and contracts. The Postal Service has consignment agreements with
several suppliers who provide parts to maintain and repair vehicles, ranging from
motors, transmissions, tires, and batteries to nuts, bolts, and screws.

SEAM is a web-based application designed to improve inventory tracking and visibility,
implement forecasting and automatic replenishment capabilities, and standardize asset
tracking maintenance repair functions. The Postal Service began to phase-in SEAM
during FY 2012 to replace the Vehicle Management Accounting System. The Pacific
Area was the second area to make the transition. 12

VMF personnel are required to perform regular physical inventories of its vehicle parts.
Suppliers establish order point inventory levels for NOA parts, usually based on
12 months of average usage. VMF personnel and NOA suppliers manage the
order points conjointly. NOA parts are entered into SEAM as part of the NOA supplier
on-hand inventory at the VMF. Once a part is issued to a work order for vehicle
maintenance the Postal Service pays for it through SEAM and updates the NOA
supplier information. Unlike the Vehicle Management Accounting System, SEAM allows
NOA suppliers to view all VMF inventory usage and levels, which helps them replenish
inventory at the VMFs. NOA suppliers are authorized to inventory and pull back their
own stock at VMFs once a year, or more frequently if their accountants or other
circumstances require it.




12
     The Pacific Area transitioned to SEAM in June 2012. As of November 2012, all areas are using SEAM.


                                                          9
Vehicle Parts Inventory Management –                                                            DR-AR-13-003
 Pacific Area



Objectives, Scope, and Methodology

Our objectives were to determine whether vehicle parts were purchased and maintained
at the appropriate levels and management controls were adequate to safeguard
inventory.

Our audit scope included assessing vehicle parts inventory data and processes and
procedures used to maintain inventory stock levels and safeguard vehicle parts at
selected VMFs. Specifically, we:

    Obtained data from the EDW to determine national, area, and district costs for
     vehicle parts and supplies.

    Reviewed EDW cost data and judgmentally selected the Pacific Area for our review,
     based on the total vehicle parts cost during FY 2012.

    Randomly select 12 VMFs in the Pacific Area for review and conducted physical site
     visits of selected units. 13

    Obtained and reviewed vehicle part costs from the EDW for each vehicle Post Office
     assigned to the selected VMFs.

    Obtained NOA supplier inventory data from SEAM and compared the established
     levels to vehicle parts quantities on-hand.

    Observed physical security and access controls at selected VMFs.

    Conducted interviews with applicable personnel and obtained documentary evidence
     regarding parts purchases, inventory levels, and controls.

    Reviewed applicable documentation, policies, and procedures. 14

We conducted this performance audit from November 2012 through April 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on March 14, 2013, and included their
comments where appropriate.

13
  For our random selection we used a statistical two strata sample, excluding the Honolulu District.
14
  Documentation, policies, and procedures reviewed include Handbook PO-701, Fleet Management; VMB 02-97,
Vehicle Maintenance Standard Operating Procedures; VMB 04-03, Mandatory (Interim) Physical Inventories; and
VMB 02-11.


                                                      10
Vehicle Parts Inventory Management –                                          DR-AR-13-003
 Pacific Area


We assessed the reliability of vehicle parts data from EDW, SEAM, and supplier
information networks by reviewing various data elements and interviewing personnel
knowledgeable about the data and the parts purchased. To verify NOA suppliers’ parts
data, we compared NOA suppliers' parts inventory reports to parts stored at the
selected facilities. We determined that the data were sufficiently reliable for the
purposes of this audit.

Prior Audit Coverage

                                                   Final
                                                  Report         Monetary Impact (in
      Report Title          Report Number           Date               millions)
Vehicle Parts Inventory     DR-AR-12-007         9/24/2012               None
Management – Northeast
Area
Report Results: Overall, managers at selected Northeast Area VMFs generally
purchased and maintained inventory levels for NOA and nonNOA parts. We found,
however, that management did not always safeguard parts inventory. This occurred
because managers were not aware of security risks and policies regarding
safeguarding assets. As a result of inadequate controls, vehicle parts valued at
$8,331,963 were at risk. Management agreed with the findings and recommendations
but, while acknowledging the security issues, disagreed with the dollar value of the
assets at risk.

Vehicle Parts Program          DR-AR-10-008        9/24/2010          $17,488,469
Report Results: Although the vehicle parts purchasing process significantly reduced
Postal Service costs for vehicle parts, the Postal Service did not always pay the lowest
price for the parts. Also, vehicle part assets were at risk at some VMFs. Management
agreed with the findings, recommendations, and monetary impact.




                                            11
 Vehicle Parts Inventory Management –                                                                DR-AR-13-003
  Pacific Area



                                       Appendix B: Other Impacts

      Recommendation                                 Impact Category                                 Amount

                 2                                    Assets at Risk 15                              $23,125,255

 The OIG reviewed inventory controls at 12 randomly selected VMFs in the Pacific Area.
 At 11 locations, we identified physical security weaknesses or inadequate controls over
 inventory management processes. The assets at risk for each of the VMFs that had one
 or both of the risk factors identified totaled $12,606,209 (see Table 3). We projected
 assets at risk of $23,125,255 16 for the Pacific Area VMFs17 based on inadequate
 inventory controls at the facilities in our sample.

                             Table 3. Vehicle Parts Inventory Controls

                                                                                           FY 2012 Assets at
      District                  VMF                 Assets at Risk Category
                                                                                                 Risk
 Bay-Valley          San Jose                      Separation of Duties                                $1,292,290
 Los Angeles         Los Angeles                   None                                                         0
                     Fresno                        Separation of Duties                                   769,760
 Sacramento                                        Physical Security, Separation
                     Stockton                                                                            1,120,183
                                                   of Duties
                                                   Physical Security, Separation
                     San Bernardino                                                                      2,299,310
                                                   of Duties
 San Diego
                                                   Physical Security, Separation
                     San Diego                                                                           2,631,757
                                                   of Duties
 San                 North Bay (in San
                                                   Separation of Duties                                  1,035,218
 Francisco           Rafael)
                     La Puente                     Separation of Duties                                    817,713
                                                   Physical Security, Separation
                     Torrance                                                                              390,048
                                                   of Duties
 Santa Ana                                         Physical Security, Separation
                     Long Beach                                                                            880,959
                                                   of Duties
                     Anaheim - Auxiliary of        Physical Security, Separation
                                                                                                           634,556
                     Huntington Beach              of Duties
 Sierra              Van Nuys - Auxiliary of
                                                   Separation of Duties                                    734,415
 Coastal             Santa Clarita
 Total                                                                                                $12,606,209
Source: OIG analysis.




 15
    Assets or accountable items at risk include assets or accountable items (for example, cash, stamps, and money
 orders) that are at risk of loss because of inadequate internal controls.
 16
    Based on a 95 percent confidence level for a stratified variable projection for 2 years.
 17
    This projection excludes the Honolulu District because this district was excluded from our sample universe.


                                                         12
Vehicle Parts Inventory Management –                          DR-AR-13-003
 Pacific Area



                          Appendix C: Management's Comments




                                         13
Vehicle Parts Inventory Management –        DR-AR-13-003
 Pacific Area




                                       14
